                                        OFFICE OF INSPECTOR GENERAL
                                                                       MEMORANDUM




DATE:          April 15, 2010

TO:            Steven VanRoekel, Managing Director

FROM:          David L. Hunt, Acting Inspector General

SUBJECT:       Inspection Report, Recovery Act Reporting, Data Quality Review


Attached is a copy of the inspections report prepared by this office based on a request in
September 2009 by the Recovery Accountability and Transparency Board. A copy of
this inspection report will be forwarded to them who will post the report on the
Recovery.gov website.

This report is being issued as final and was discussed extensively with your staff during
the conduct of our inspection. Therefore, there is no need to respond to this report. We
hope that this report can provide assistance to your office as this program moves
forward. We appreciate the time, effort, and cooperation given by your office to assist us
in conducting this inspection.

Please contact William K. Garay, Assistant Inspector General for Audits at (202 418-
7899 with any questions.
FEDERAL COMMUNICATIONS
      COMMISSION




  OFFICE OF INSPECTOR GENERAL

           Inspection Report
         Recovery Act Reporting
          Data Quality Review

        Report No. 09-EVAL-12-24
              March 3, 2010
SUMMARY

This report presents our findings and recommendations based on our inspection of the
Federal Communications Commission’s (the Commission) American Recovery and
Reinvestment Act, P.L. 111-5 (the Recovery Act), reporting process. The purpose of our
inspection was to determine whether, as of September 30, 2009, the Commission had
established a process to perform limited data quality reviews intended to identify material
omissions and/or significant reporting errors.

We based this report on discussions with Commission staff and reviews of the Recovery
Act and Office of Management and Budget memoranda. We also reviewed the
Commission’s activities, recordkeeping, and reporting.

We conducted our inspection under the authority of the Inspector General Act of 1978, as
amended, and according to Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency. 1

OBJECTIVES AND SCOPE OF INSPECTION

The purpose of our inspection is to determine whether the following objectives had been
met through an established data quality review process.

Objectives

    1. Funds are awarded and distributed in a prompt, fair, and reasonable manner;
    2. Funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, waste, error, and abuse;
    3. Projects funded under the Recovery Act should avoid unnecessary delays and
       cost overruns; and
    4. Programs meet specific goals and targets and contribute to improved
       performance on broad economic indicators.

Scope

We reviewed the Commission’s process for monitoring recipient reporting of recovery
funds for the quarter ending September 30, 2009.




1
 On October 14, 2008, the Inspector General Reform Act of 2008 (Public Law 110-409) replaced the
President’s Council on Integrity and Efficiency with the Council of the Inspectors General on Integrity and
Efficiency.
CONCLUSION

We found for the quarter ending September 30, 2009, the Commission had generally met
the objectives stated above in their administration of the Recovery Act funds. The
Commission had designed and initiated a number of controls to monitor the awarding of
Recovery Act funds. The Commission had a reasonably successful outcome given the
abbreviated time frame in which to effect the program requirements and that the new
FAR requirements were not promulgated at the time of a number of contract awards.

There were four operational challenges encountered by the Commission and are listed at
the end of this report.

BACKGROUND

Program Purpose
Under the Recovery Act, the National Telecommunications and Information
Administration (NTIA) of the Department of Commerce may use up to $90 million for
consumer education and outreach related to the transition from analog to digital television
(DTV) broadcasts, and may transfer this amount to the Commission if deemed necessary
and appropriate by the Secretary of Commerce, in order to aid a smooth transition to
digital broadcasts by increasing awareness. The Nation-wide transition to digital
television occurred on June 12, 2009 as required by the DTV Delay Act, P.L. 111-4.
Funded activities have included contracts to organizations for programs to educate groups
most at risk for losing television service. Such groups include senior citizens, minority
communities, people with disabilities, low-income individuals, and people living in tribal
and rural areas. Program funds have also provided one-on-one assistance to vulnerable
populations, including help with converter box installation.

Program Funding
After sending the appropriate notification to Congress as required by the ARRA,
NTIA transferred $70,605,000 in funding to the Commission for education and outreach
efforts to support the Digital-To-Analog Converter Box Program. In addition to funding
the initiatives discussed below under “Characteristics of Financial Awards” (media buys,
community walk-in assistance centers, in-home converter box assistance, and call center
support services), the funds transferred from NTIA were used for web site upgrades to
improve the Commission’s DTV website, printing DTV publications and for translating
those publications to benefit non-English speaking communities, and for travel
expenditures for Commission staff who were serving as the “boots on the ground.” Staff
members provided local support and information to communities across the country,
particularly in markets where there was a significant percentage of the population
receiving television signals over-the-air.

Program Objectives
The Commission’s Strategic Plan identified in its Media strategic goal the mandate to
“facilitate the transition to digital modes of delivery.” In keeping with this vision, the
Commission developed the objective of conducting an outreach campaign to educate and
inform consumers about the transition to digital television. In furtherance of this
objective, the Commission leveraged its experiences and knowledge gained from early
transition efforts. The Commission partnered with local, state, and tribal governments
and community-based organizations for outreach and consumer assistance. The
Commission established full-service walk-in help centers in local communities where
consumers could receive answers to their transition questions, apply for converter box
coupons, and get assistance with installation and reception issues. Furthermore, the
Commission identified and trained organizations to provide in-home assistance services
as trusted sources for consumers. The Commission also augmented its existing call
center capabilities to handle the large volume of DTV related inquiries that came in
leading up to and after the transition date. Finally, the Commission ensured the
development and revision of timely consumer information based on consumer needs and
continued to provide Commission staff as “boots on the ground” for consumer education,
action, and assistance.

CHARACTERISTICS OF FINANCIAL AWARDS

The Commission awarded contracts for several different types of services with funding
from the Digital-to-Analog Converter Box Program.

Media Campaign - Media outreach and distribution efforts were conducted in order to
achieve widespread coverage of the DTV transition date. Earned media opportunities on
print, television, and radio outlets were pursued in order to maximize consumer exposure
to information about the transition through multiple media outlets. Media outreach
included purchase of advertisements in local, regional, and national print publications and
radio ads with a concentration on stations and publications that reach the populations that
were most at risk. In particular, funds were used for development of art work and
messages to publicize the availability of the walk-in centers, FCC call center numbers,
and converter box installation assistance and for placement of such ads in newspapers
and magazines, and on the air, including ethnic media outlets. Funding for ad placement
focused on maximizing public knowledge of the transition date and the assistance that
was available and on the top at-risk DMAs and Puerto Rico.

Community Walk-In Assistance Centers - The Commission sought proposals for
community walk-in assistance centers to provide services to the public including
demonstrations of digital-to-analog converter box installation and operation, distribution
of DTV transition consumer literature, and on-line access for converter
box coupon applications. The scope of the solicitations was for defined geographic areas
throughout the country with a focus on providing assistance on areas with a demonstrated
need for DTV preparedness. The solicitations request that proposals focus on providing
assistance to low-income consumers, minority communities, non-English speaking
consumers, senior citizens, consumers living in rural areas or on tribal lands, and
consumers with disabilities. Awards were made on a competitive basis first to responsible
certified HUBZone small business concerns. Additional awards were made on a
competitive basis to responsible eligible small business concerns. If these contract awards
did not meet the Commission’s needs across all geographic areas, additional awards were
made on a full and open competition basis.

In-Home Digital-to-Analog Converter Box Assistance – The Commission sought
proposals for two types of in-home digital-to-analog converter box assistance. Basic
digital-to-analog assistance consisted of installing the digital-to-analog converter box,
providing a minimal level of assistance in connecting and orienting an existing, in-home
antenna, and scanning for digital channels.

Expert, complex in-home digital-to-analog converter box installation assistance consisted
of installing every type of digital-to-analog converter box, making significant physical
adjustments to antennas - including the possibility of suggesting the need for new
antennas and mounting antennas in varied locations throughout the inside of a housing
unit, scanning and rescanning to locate the maximum number of digital channels,
integrating VCRs, DVD players, and other multi-media equipment into the converter box
installation, and helping identify and troubleshoot loss of signal issues not resolved by
antenna and scanning adjustments.

The scope of the solicitations were for defined geographic areas throughout the country
with a focus on providing assistance on areas that were most in need of converter box
installation assistance. The Commission sought proposals that focused on providing
converter box installation to low-income consumers, minority communities, non-English
speaking consumers, senior citizens, consumers living in rural areas or on tribal lands,
and consumers with disabilities.

Contracts were awarded using cascading set-asides. Awards were made on a competitive
basis first to responsible certified HUBZone small business concerns. Additional awards
were made on a competitive basis to responsible eligible small business concerns. If these
contract awards did not meet the Commission’s needs across all geographic areas,
additional awards were made on a full and open competition basis. Contractors were
reimbursed for installations based on a per unit installation price. The price was a fully
loaded rate and included all costs associated with support and overhead.

Call Center Support Services – The Commission augmented support of one its Consumer
Center operation for the DTV Hotline through its existing toll free number, 1-888-
CALLFCC (1-888-225-5322). The contractor provided and maintained turnkey service of
trained telephone representatives, email services and telecom equipment and network
services, including call processing equipment, and facilities and network services for
responding to incoming English and Spanish calls regarding the transition to digital
television. Offers were assessed against evaluation factors tailored for the solicitation
with the award based on a best value continuum. The evaluation factors were technical
capability, past performance, and price.

DTV.gov Website Development – The Commission provided education and outreach
concerning the DTV transition, particularly programs to educate vulnerable populations,
including senior citizens, minority communities, people with disabilities, low-income
individuals and people living in rural areas and provide one-on-one assistance to
vulnerable populations including help with converter box installations. The Commission
sought to expeditiously provide educational materials and improvements to its DTV web
site in order to give consumers relying on over-the-air television signals the vital
information they needed concerning the transition and as much time as possible to act on
that information. The Commission tasked Computech with supporting the DTV 2.0
transition initiative, including the development of a redesigned website, providing
statistical analysis and reporting, and delivering ongoing support and maintenance from
April 1, 2009 through September 30, 2009. Computech redesigned the DTV website to
improve usability, making it easier for users to find critical DTV information and to
complete key tasks. Computech also provided statistical analysis and reporting
including: 1) forecasting DTV call trends statistics based on the dates provided by
broadcasters; 2) modeling the anticipated call volume to produce optimized staff
projections for the Gettysburg call center; 3) extracting, loading, and transformation of
data across multiple sources; and 4) creating canned and ad hoc reports to accommodate
the Commission’s DTV reporting requirements.

AGENCY ACCOUNTABILITY MECHANISMS

Recipients of contracts awarded under this program were identified along with the amount of
funds awarded to each and how those funds were spent. Contract recipients reported
performance information, such as the number of customers served or installations completed
to the FCC during their contracts. This information was posted to the FCC’s Recovery Act
web site.

The Commission utilized performance information in routine decision making and
performance information were the basis for ongoing modifications to the Recovery Act plans
and assessments of activities. Performance was discussed at Bureau Chief meetings, daily
DTV planning meetings, multiple weekly planning meetings, and in collaborative preparation
of Recovery Act plans.

Program managers at the Commission were held accountable for achieving program goals
through the Commission’s performance evaluation systems. Reports of program progress and
performance in meeting identified milestones were posted on the FCC’s Recovery Act web
site.

CHALLENGES

The FCC faced operational challenges during the execution of the digital television transition
outreach program. Below is a list of some of the challenges that the FCC was confronted
with:

   1. The FCC had an unprecedented volume of contracting actions for the agency to
      handle during a short period of time. The FCC maintained a list of contract awards
      on its website at: http://www.fcc.gov/omd/contracts/post-award/recovery.html.
      While this initially proved to be an additional useful layer of transparency, the
      information was not always kept up to date as time passed from the initial postings.
2. Ensuring that all Recovery Act funded agreements include the required Recovery
   Act contract clauses was a potential problem for the FCC initially since many of
   its contract awards predated the issuance of the new Federal Acquisition
   Regulations. The FCC used alternative contract language to preserve its right to
   obtain the necessary data from its vendors prior to the release of the Recovery Act
   contract clauses that were later added to the Federal Acquisition Regulations.
3. Because the digital television transition occurred on June 12, 2009, most of the
   FCC’s vendors had completed their work prior to www.federalreporting.gov
   launching for the quarter ending September 30, 2009. The FCC collected the data
   from its vendors prior to the launch of the system to preserve the information
   since most vendors had already invoiced and been paid. While most vendors
   were agreeable to then going to www.federalreporting.gov and reporting after
   they had already completed the task once for the FCC, the FCC did have a few
   non-reporters as a result of the time lag and double reporting. The FCC has been
   in contact with these non-reporters to ask them to maintain their information until
   a solution is presented for entering reports for previous quarters.
4. Data quality of vendor’s reports was somewhat challenging as the FCC did not
   have full visibility into the data behind every field that the contractors report on.
   Using the approach of searching for significant errors and material omissions and
   validating objective information, the FCC did flag significant errors and was able
   to have the vendors correct them. OMB guidance, M-10-08, has provided
   additional useful items to look for when reviewing the reports in the future.
